Before the Committee on Transportation and Infrastructure
Subcommittee on Highways, Transit and Pipelines
United States House of Representatives



For Release on Delivery
Expected at
10:00 a.m. EDT
                          Actions Taken and
Wednesday
June 16, 2004
                          Actions Needed To
CC-2004-061
                          Improve Pipeline
                          Safety



                          Statement of
                          The Honorable Kenneth M. Mead
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman, Ranking Member, and Members of the Subcommittee:

We appreciate the opportunity to testify today on the progress that the Office of
Pipeline Safety (OPS) has made to improve pipeline safety and the actions that still
need to be taken.

OPS is responsible for overseeing the safety of the Nation’s pipeline system, an
elaborate network of more than 2 million miles of pipeline moving millions of
gallons of hazardous liquids and more than 55 billion cubic feet of natural gas daily.
The pipeline system is composed of predominantly three segments—natural gas
transmission pipelines, natural gas distribution pipelines, and hazardous liquid
transmission pipelines—and has about 2,2001 natural gas pipeline operators and
220 hazardous liquid pipeline operators.

In March 2000, the Office of Inspector General reported2 that weaknesses existed in
OPS’s pipeline safety program and made recommendations designed to correct
these weaknesses. These recommendations were later mandated in the Pipeline
Safety Improvement Act of 2002. This Act required us to review OPS’s progress in
implementing our recommendations. Our testimony today is based largely on the
results of this second review.3

Historically, OPS was slow to implement critical pipeline safety initiatives,
congressionally mandated or otherwise, and to improve its oversight of the pipeline
industry. The lack of responsiveness prompted Congress to repeatedly mandate
basic elements of a pipeline safety program, such as requirements to inspect
pipelines periodically and to use smart pigs4 to inspect pipelines.

When we last testified before this Subcommittee on pipeline safety in February
2002, our testimony included actions taken and actions still needed to implement
the recommendations in our March 2000 report. While much remained to be done
at that time, today we can report that OPS has shown considerable progress in
implementing our prior recommendations.

Before proceeding to the core of our statement, we would like to highlight OPS’s
progress in two key areas—clearing out congressional mandates and closing out
National Transportation Safety Board (NTSB) safety recommendations. This is a


1
    Of the 2,200 operators of natural gas pipelines, there are approximately 1,300 operators of natural gas distribution
    pipelines and 880 operators of natural gas transmission pipelines.
2
    OIG Report Number RT-2000-069, “Pipeline Safety Program,” March 13, 2000.
3
    OIG Report Number SC-2004-064, “Actions Taken and Needed for Improving Pipeline Safety,” June 14, 2004.
4
    A “smart pig” is an instrumented internal inspection device that traverses a pipeline to detect potentially dangerous
    defects, such as corrosion.


                                                                                                                       1
direct result of attention at the highest levels in DOT management, namely the
Secretary.
•       Clearing out most, but not all, of the congressional mandates enacted in
        1992 and 1996. Of the 31 mandates from legislation enacted in 1992 and
        1996, 25 mandates have been implemented, 17 of which were implemented
        since our March 2000 report. OPS has also made considerable progress in
        meeting the 23 mandates enacted in the Pipeline Safety Improvement Act of
        2002 Act (2002 Act). The most noteworthy of those mandates required
        integrity management programs5 (IMP) for operators of hazardous liquid and
        natural gas transmission pipelines. The operators use the IMPs to assess their
        pipelines for risk of a leak or failure, take action to mitigate the risks, and
        develop program performance measures. Nevertheless, six mandates from
        legislation enacted in 1992 and 1996 remain open.
•       Closing out nearly all the long-overdue NTSB safety recommendations.
        OPS has closed out 21 of 23 safety recommendations we identified in our
        March 2000 report. Also, since that report, OPS has received 13 new NTSB
        recommendations, of which 8 have been closed. NTSB removed pipeline
        safety from its most-wanted list of safety improvements. OPS has taken the
        required actions on two additional recommendations and is waiting for NTSB
        to close them out. OPS is continuing its efforts to close out the remaining five
        NTSB recommendations for which acceptable actions have not been
        completed.

OPS has issued important rules for improving pipeline safety in the past 2 years.
The most important ones were those requiring IMPs for hazardous liquids and
natural gas transmission pipelines. This is a key issue as the IMP is the backbone of
OPS’s risk-based approach to overseeing pipeline safety.

It is against this backdrop that I would like to discuss five major points regarding
pipeline safety: (1) mapping the pipeline system; (2) monitoring the evolving
nature of IMP implementation; (3) monitoring operators’ corrective actions for
remediating pipeline integrity threats; (4) closing the safety gap on natural gas
distribution pipelines; and (5) developing an approach to overseeing pipeline
security.


5
    The Integrity Management Program is a documented set of policies, processes, and procedures that includes, at a
    minimum, the following elements: (1) a process for determining which pipeline segments could affect a
    high-consequence area, (2) a baseline assessment plan, (3) a process for continual integrity assessment and evaluation,
    (4) an analytical process that integrates all available information about pipeline integrity and the consequences of a
    failure, (5) repair criteria to address issues identified by the integrity assessment and data analysis, (6) features
    identified through internal inspection, (7) a process to identify and evaluate preventive and mitigative measures to
    protect high-consequence areas, (8) methods to measure the integrity management program’s effectiveness, and (9) a
    process for review of integrity assessment results and data analysis by a qualified individual.


                                                                                                                        2
• Mapping the Pipeline System - The first step to an effective oversight program
  is to identify where the assets to be overseen are located. In the past year, OPS
  completed the development of its national pipeline mapping system (NPMS), an
  initiative the pipeline industry was reluctant to support, so Congress mandated it
  in the 2002 Act. The NPMS is now fully operational and has mapped
  100 percent of the hazardous liquid (approximately 160,000 miles of pipeline)
  and natural gas transmission (more than 326,000 miles) pipeline systems
  operating in the United States. Congress exempted natural gas distribution
  pipelines from the mapping mandate, so currently OPS does not have mapping
  data on the approximately 1.8 million miles of this type of pipeline.
• Monitoring the Evolving Nature of IMP Implementation - The next step is
  threefold: (1) operators assessing their pipelines for any potential integrity
  threat and correcting any threats that are identified, (2) OPS assessing whether
  the implementation of the operators’ IMPs were adequate, and (3) OPS
  continuing to support research and development projects to improve pipeline
  inspection technology.
   − As mandated by Congress, OPS issued regulations requiring pipeline
     operators of hazardous liquid and natural gas transmission pipelines to
     develop and implement IMPs.           IMPs are in the early stages of
     implementation, and operators are not required to have all baseline integrity
     inspections completed of hazardous liquid pipelines until 2009 and of natural
     gas transmission pipelines until 2012. OPS required hazardous liquid
     pipeline operators—the first segment of the industry required to implement
     the IMP—to first complete baseline integrity inspections of pipeline miles in
     high-consequence areas, such as residential communities and business
     districts. These pipelines present the highest risk of fatalities, injuries, and
     property damage should an accident occur.
      About 135,000 miles of hazardous liquid and more than 326,000 miles of
      natural gas transmission pipeline still need baseline integrity inspections.
      Nevertheless, there are early signs that the baseline integrity inspections are
      working well for operators of hazardous liquid pipelines, and there was
      clearly a need for such inspections. According to OPS, in the pipelines
      inspected so far, more than 20,000 integrity threats have been identified and
      remediated. A key point to remember, though, is these threats were
      identified in less than 16 percent (about 25,000 miles) of hazardous liquid
      pipeline miles requiring baseline integrity inspections.
   − OPS will be monitoring the implementation of the IMP by more than
     1,100 hazardous liquid and natural gas transmission pipeline operators. This
     is in addition to OPS’s ongoing oversight activities, such as inspecting new
     pipeline construction and investigating pipeline accidents.           As of
     April 30, 2004, the 63 largest operators of hazardous liquid pipelines have


                                                                                   3
      undergone initial IMP reviews by OPS inspection teams, leaving
      157 hazardous liquid and 884 natural gas transmission pipeline operators still
      needing an initial IMP review by an OPS inspection team. Monitoring the
      implementation of pipeline operators’ IMPs will be an ongoing process for
      years.
   − In addition, OPS must continue to support research and development projects
     to improve pipeline assessment technology. The majority of operators are
     using smart pigs to assess pipelines under their IMPs, but smart pigs are not
     a silver bullet that can identify all pipeline integrity threats. Smart pigs
     currently in use can successfully detect and measure corrosion, dents, and
     wrinkles but are less reliable in detecting other types of mechanical damage.
     As a result, certain integrity threats still go undetected after a baseline
     integrity inspection, and pipeline accidents may occur. Also, the smart pig
     technologies currently available cannot be used in natural gas distribution
     pipelines because the majority of distribution piping is too small in diameter
     (1 to 6 inches) and has multiple bends and material types intersecting over
     very short distances.
• Monitoring Operators’ Corrective Actions for Remediating Pipeline
  Integrity Threats - Once a threat is identified, OPS will need to follow up to
  ensure that the operators take timely and appropriate corrective action. Of the
  more than 20,000 threats have been repaired to date, more than 1,200 required
  immediate repair, 760 threats required repairs within 60 days, and 2,400 threats
  required repairs within 180 days. More than 16,300 threats fall into the category
  of “other repairs,” for which remediation activities are not considered
  time-sensitive.
   In understanding the operators’ actions to remediate many of these threats, IMP
   inspectors need a working knowledge of the operators’ pigging operations and
   of the interpretation of inspections’ results. At the time we issued our March
   2000 report, OPS did not train its inspectors on the use of smart pig technologies
   and the interpretation of the result of the inspections. Since that time, OPS now
   provides a course to IMP inspectors where they gain the knowledge and skills
   required to conduct meaningful safety evaluations of operator pigging program
   inspections and of pigging data for hazardous liquid and natural gas
   transmission pipelines.
   OPS’s remediation criteria encompass a broad range of actions, which include
   mitigative measures (such as reducing the pipeline pressure flow), as well as
   repairs that an operator can take to resolve an integrity threat. But the process is
   not as simple as identifying the problem and determining how best to fix it. For
   some repairs, Federal and state environmental review and permitting processes
   have delayed preventive measures from occurring, as was demonstrated by the
   recent pipeline rupture in northern California. A hazardous liquid pipeline


                                                                                     4
      ruptured and released about 85,000 gallons of diesel fuel, affecting 20 to
      30 acres of marshland.
      The deteriorating condition of this pipeline was well documented by the
      operator, who initiated action to relocate the pipeline in 2001. However, it took
      nearly 3 years and more than 40 permits before the operator was given approval
      to relocate the pipeline. It was too late to prevent this spill, but fortunately in
      this case there was no loss of human life.
      An Interagency Task Force was set up to monitor and assist agencies in their
      efforts to expedite their review of permits. However, the Task Force has yet to
      implement its Memorandum of Understanding (MOU) that would expedite the
      environmental review and permitting processes so that pipeline repairs can be
      made before a serious consequence occurs. If there are any further delays in
      implementing the MOU, then it may be necessary for Congress to take action.
• Closing the Safety Gap on Natural Gas Distribution Pipelines - The natural
  gas distribution system makes up over 85 percent (1.8 million miles) of the
  2.1 million miles of natural gas pipelines in the United States. Distribution is
  the final step in delivering natural gas to end users such as homes and
  businesses. While hazardous liquid and natural gas transmission pipeline
  operators are moving forward with IMPs, natural gas distribution pipeline
  operators6 are not required to have an IMP. According to industry officials, the
  initial reason why natural gas distribution pipelines were not required to have an
  IMP is that the majority of distribution pipelines cannot be inspected using smart
  pigs.
      The IMP is a risk-management tool designed to improve safety, environmental
      protection, and reliability of pipeline operations. That natural gas distribution
      pipelines cannot be internally inspected using smart pigs is not by itself a
      sufficient reason for not requiring operators of natural gas distribution pipelines
      to have IMPs. Other elements of the IMP can be readily applied to this segment
      of the industry, including but not limited to (1) a process for continual integrity
      assessment and evaluation, and (2) repair criteria to address issues identified by
      the integrity assessment and data analysis.
      Our concern is that the Department’s strategic safety goal is to reduce the
      number of transportation-related fatalities and injuries, but natural gas
      distribution pipelines are not achieving this goal. Over the last 10 years, natural
      gas distribution pipelines have experienced over 4 times the number of fatalities
      (174 fatalities) and more than 3.5 times the number of injuries (662 injuries)
      than the combined totals of 43 fatalities and 178 injuries for hazardous liquid
      and natural gas transmission pipelines.

6
    There are some operators of natural gas transmission pipelines that are also operators of natural gas distribution
    pipelines. IMP requirements do not apply to their distribution pipelines.


                                                                                                                    5
      To address this issue, the American Gas Foundation, with OPS support, is
      sponsoring a study to assess the Nation’s gas distribution infrastructure that will
      evaluate safety performance, current operating and regulatory practices, and
      emerging technologies.
• Developing an Approach To Overseeing Pipeline Security - It is not only
  important that we ensure the safety of the Nation’s pipeline system, we must
  also ensure the security of the system. OPS took the lead to help reduce the risk
  of terrorist activity against the Nation’s pipeline infrastructure following the
  events of September 11, 2001, but OPS now states it plays a secondary or
  support role to the Department of Homeland Security’s (DHS) Transportation
  Security Administration (TSA).
      The current Presidential Directive7 that addresses this issue is at too high a level
      of generality to provide clear guidance on each Agency’s [DOT, DHS, and the
      Department of Energy (DOE)] responsibility in regards to pipeline security. The
      delineation of roles and responsibilities between DOT, DHS, and DOE needs to
      be spelled out in an MOU at the operational level so that we can better monitor
      the security of the Nation’s pipelines without impeding the supply of energy.


Mapping the Pipeline System
To provide effective oversight of the Nation’s pipeline system, OPS must first know
where the pipelines are located, the size and material type of the pipe, and the types
of products being delivered. The Nation’s pipeline system is an elaborate network
of over 2 million miles of pipe moving millions of gallons of hazardous liquids and
more than 55 billion cubic feet of natural gas daily.                           The pipeline system is
composed of predominantly three segments—natural gas transmission pipelines,
natural gas distribution pipelines, and hazardous liquid transmission pipelines—run
by about 2,200 natural gas distribution and transmission pipeline operators and
220 operators of hazardous liquid pipelines (as seen in Table 1). Of the 2,200
operators of natural gas pipelines, there are approximately 1,300 operators of
natural gas distribution pipelines and 880 operators of natural gas transmission
pipelines. There are approximately 90 Federal and 400 state inspectors responsible
for overseeing the operators’ compliance with pipeline safety regulations.

7
    Homeland Security Presidential Directive/HSPD-7, “Critical Infrastructure Identification, Prioritization, and
    Protection,” issued December 2003.


                                                                                                               6
             Table 1. Pipeline System Facts and Description
     System Segment           Facts                  Segment Description

 Natural Gas                 326,595      Lines used to gather and transmit natural gas
 Transmission Pipelines       Miles       from wellhead to distribution systems
                                          Mostly local distribution lines transporting
 Natural Gas                1.8 Million   natural gas from transmission lines to
 Distribution Pipelines        Miles      residential, commercial, and industrial
                                          customers
 Hazardous Liquid            160,000      Lines primarily transporting products such as
 Transmission Pipelines       Miles       crude oil, diesel fuel, gasoline, and jet fuel

    System Operators          Facts                 Operators Description

 Natural Gas Transmission                 Large, medium, and small operators of
                               880        natural gas transmission pipelines
 Operators
 Natural Gas Distribution                 Large, medium, and small operators of
                              1,300       natural gas distribution pipelines
 Operators
 Hazardous Liquid                         Approximately 70      large   operators   and
                                220       150 small operators
 Operators


Originally, industry was reluctant to map the Nation’s pipeline system, so Congress
responded by requiring, in the 2002 Act, the mapping of hazardous liquid and
natural gas transmission pipelines.       In the past year, OPS completed the
development of the national pipeline mapping system (NPMS). The NPMS is now
fully operational and has mapped 100 percent of the hazardous liquid
(approximately 160,000 miles of pipeline) and natural gas transmission (more than
326,000 miles) pipeline systems operating in the United States. Congress excepted
natural gas distribution pipelines from the mapping mandate, so OPS does not have
mapping data on these pipelines.

As a result of OPS and industry’s mapping efforts, Government agencies and
industry have access to reasonably accurate pipeline data for hazardous liquid and
natural gas transmission pipelines in the event of emergency or potentially




                                                                                          7
hazardous situation.    The public also has access to contact information about
pipeline operators within specified geographic areas.

Monitoring the Evolving Nature of IMP Implementation
Hazardous liquid and natural gas transmission pipeline operators are in the early
stages of implementing their IMPs. Safety baseline integrity inspections are just
now being established systemwide—starting with hazardous liquid pipelines—so
there are no comparable benchmarks. Nevertheless, as they begin implementing
their IMPs, there is not yet enough evidence available to evaluate the IMP’s
effectiveness in strengthening pipeline safety. However, there are early signs that
the baseline integrity inspections are working well for operators of hazardous liquid
pipelines, and there was clearly a need for such inspections.

OPS is also in the early stages of overseeing the implementation of the operators’
IMPs, starting with IMP assessments of operators of hazardous liquid pipelines. In
doing so, OPS is challenged with monitoring the implementation of the IMPs of
more than 1,100 hazardous liquid and natural gas transmission pipeline operators
and assisting in the development of technologies to meet the requirements of the
IMP for all sizes and shapes of pipelines and different threat detections.

Early Stages of Implementing Pipeline Operators’ IMPs
The operators’ implementation of their IMPs is a lengthy process. Even though the
IMP rules have been issued in their final form, they will not be fully implemented
for up to 8 years. For example, as part of the rules requiring IMPs for operators of
natural gas transmission pipelines, operators are required to begin baseline integrity
inspections no later than June 17, 2004, with inspections completed no later than
December 17, 2012.

As operators begin implementing their IMPs, there are early signs that the baseline
integrity inspections are working well for operators of hazardous liquid pipelines
and that there was clearly a need for such inspections. So far, according to OPS,


                                                                                    8
results from the operators’ baseline integrity inspections in predominantly high-
consequence areas show that more than 20,000 integrity threats were identified and
remediated. These threats may not have been discovered during the operators’
routine inspections. One of the most serious threats discovered was a case of
corrosion where greater than 80 percent of the pipeline wall thickness had been lost.
It has since been repaired. A lesser threat discovered was minor corrosion along a
longitudinal seam.

A key point to remember about the early baseline integrity inspection results for
operators of hazardous liquid pipelines is that these 20,000 threats were discovered
and remediated in less than 16 percent (about 25,000 miles) of pipeline miles
needing inspection.    About 135,000 miles of hazard liquid pipeline still needs
baseline integrity inspections.

Although 20,000 threats were discovered in the first 25,000 miles, we cannot
statistically project the number of threats that could be expected in the remaining
135,000 miles that still need baseline integrity inspections. We also cannot project
the number of threats that could be expected in the more than 326,000 miles of
natural gas transmission pipelines that have yet to receive baseline integrity
inspections. Also, baseline integrity inspections will not be completed for several
years and certain threats may be very time-sensitive, especially those to do with
severe internal corrosion.

OPS required hazardous liquid pipeline operators—the first segment of the industry
required to implement the IMP—to first complete baseline integrity inspections of
pipeline miles in high-consequence areas, as these areas are populated, unusually
sensitive to environmental damage, or commercially navigable waterways. These
pipelines present the highest risk of fatalities, injuries, and property damage should
an accident occur.




                                                                                    9
According to the American Petroleum Institute, nationwide there are approximately
160,000 miles of hazardous liquid pipelines, of which 51,400 miles are located in
high-consequence areas. As required by the IMP rule, 25,700 of the 51,400 miles
(50 percent) should receive baseline inspections by September 30, 2004.                                             OPS
estimates, of the nearly 327,000 miles of natural gas transmission pipelines, 24,970
miles are located in high consequence areas. But pipelines in high-consequence
areas represent only about 16 percent of the total miles (76,370 of 487,000 total
miles) for both hazardous liquid and natural gas transmission pipelines8 and
accidents that occur in non-high-consequence areas can have catastrophic
consequences, such as the deadly pipeline rupture, explosion, and fire near
Carlsbad, New Mexico.

On August 19, 2000, a 30-inch-diameter natural gas transmission pipeline ruptured
adjacent to the Pecos River near Carlsbad. The released gas ignited and burned for
55 minutes. Twelve members of a family who were camping under a concrete-
decked steel bridge that supported the pipeline across the river were killed and their
three vehicles destroyed. Two nearby steel suspension bridges for gas pipelines
crossing the river were extensively damaged.

During the investigation, NTSB investigators found the rupture was a result of
severe internal corrosion that caused a reduction in pipe wall thickness to the point
that the remaining metal could no longer contain the pressure within the pipe. The
significance of this finding cannot be overstated, as corrosion is the second leading
cause of pipeline accidents, and pipeline operators will need to forge ahead on their
baseline integrity inspections.

Monitoring the Implementation of Pipeline Operators’ IMPs
OPS must now begin assessing whether the implementation of more than
1,100 hazardous liquid and natural gas transmission pipeline operators’ IMPs were
8
    The percentage of total miles in high consequence areas for hazardous liquid and natural gas transmission pipelines are
    early estimates and may change with the beginning of the pipeline operators’ baseline integrity inspections.


                                                                                                                      10
adequate. OPS must also perform ongoing oversight activities, such as inspecting
new pipeline construction, monitoring research and development projects, and
investigating pipeline accidents. To do so, OPS believes it will need to augment its
own resources with those of the states to efficiently and effectively oversee the
operators’ IMPs.

OPS is actively overseeing IMP implementation through its assessments of
hazardous liquid pipeline operators’ IMP plans. As of April 30, 2004, the 63 largest
operators of hazardous liquid pipelines have undergone the initial IMP assessments.
That leaves 157 more operators of hazardous liquid pipelines and 884 operators of
natural gas transmission pipelines who will need initial IMP assessments.

Monitoring the implementation of pipeline operators’ IMPs will be an ongoing
process. OPS IMP inspection teams, made up of Federal and state inspectors, spent
approximately 2 weeks at each operator’s headquarters reviewing results of
integrity inspection and actions taken to address integrity threats, as well as overall
IMP development and effectiveness. With about 1,041 pipeline operators who have
not yet had an initial IMP assessment (at 2 weeks for each assessment),
compounded by the fact that pipelines operators have up to 8 years to complete their
baseline integrity inspections, the overall effectiveness of operators’ IMPs in
strengthening pipeline safety will not be known for years.

Advancing Threat Detection Technologies Is Fundamental to the
Success of Integrity Inspections
As part of OPS’s IMP rule, operators of hazardous liquid and natural gas
transmission pipelines are required to inspect the integrity of their pipelines using
smart pigs or an alternate equally effective method such as direct assessment. To
date, OPS’s integrity management assessments indicate that operators of hazardous
liquids pipelines used smart pigs about 70 percent of the time to conduct their
baseline integrity inspections and strongly favored the use of smart pigs over
alternative inspection methods available under the IMP. Although there have been

                                                                                    11
significant advances in smart pig technology, the current technology still cannot
identify all pipeline integrity threats. Smart pigs currently in use can successfully
detect and measure corrosion, dents, and wrinkles but are less reliable in detecting
other types of mechanical damage.                        As a result, certain integrity threats go
undetected and pipeline accidents may occur.

For example, on July 30, 2003, an 8-inch diameter hazardous liquid pipeline
ruptured near a residential area under development in Tucson, Arizona, releasing
more than 10,000 gallons of gasoline and shutting down the supply of gasoline to
the greater metropolitan Phoenix area for 2 days. Whether this rupture could have
been prevented is still not known because the cause of the rupture, stress crack
corrosion,9 rarely causes failure in hazardous liquid pipelines. Also, currently there
are no tools or mechanisms small enough to fit in 8-inch diameter piping in order to
identify the threat of stress crack corrosion.

OPS’s research and development (R&D) program is aimed at enhancing the safety
and reducing the potential environmental effects of transporting natural gas and
hazardous liquids through pipelines. Specifically, the program seeks to advance the
most promising technological solutions to problems that imperil pipeline safety,
such as damage to pipelines from excavation or corrosion. OPS sponsors R&D
projects that focus on providing near-term solutions that will increase the safety,
cleanliness, and reliability of the Nation’s pipeline system.

OPS’s R&D funding has more than tripled, from $2.7 million in FY 2001 to
$8.7 million in FY 2003. Nearly $4 million of the $8.7 million is funding projects
to improve the technologies used to inspect the integrity of pipeline systems in
support of the IMP. OPS currently has 22 active projects that explore a variety of
ways to improve smart pig technologies, develop alternative inspection and

9
    Stress crack corrosion (SCC), also known as environmentally assisted cracking, is a relatively new phenomenon.
    Instead of pits, SCC manifests itself as cracks that are minute in length and depth. Over time, individual cracks
    coalesce with other cracks and become longer.


                                                                                                                 12
detection technologies for pipelines that cannot accommodate smart pigs, and
improve pipeline material performance. For example, OPS has a project underway
that will improve the capabilities of smart pigs to better detect and measure both
corrosion and mechanical damage. The expected project outcome is a smart pig
that is simpler to build and use.

The R&D challenge OPS now faces is seeing these projects through to completion,
without undue delay and expense, to ensure that viable, reliable, cost-effective
technologies become readily available to meet the demands of increased usage
required under the IMP.

Monitoring Remediation of Pipeline Integrity Threats
Much of the Nation’s existing pipeline infrastructure is over 50 years old. When
pipeline integrity threats are identified, repairs may require Federal and state
environmental reviews and permitting before the operator can proceed. However,
OPS regulations identify repair criteria for the types of threats that must be repaired
within specified time limits. At times, the environmental review and permitting
processes become an obstacle that can delay the operators’ remediation efforts.

When it passed the Pipeline Safety Improvement Act of 2002, Congress recognized
that timely repair of pipeline integrity threats was essential to the well-being of
human health, public safety, and the environment. Therefore, Congress directed the
President to establish an interagency committee to develop and ensure the
implementation of a coordinated environmental review and permitting process.
This process should allow pipeline operators to commence and complete all
activities necessary to carry out pipeline repairs within any time periods specified
under OPS’s regulations.




                                                                                    13
Certain Pipeline Repairs Must Be Completed Within Specified
Time Limits
OPS regulations identify remediation criteria for the types of threats that must be
repaired within specified time limits, the length of which reflects the probability of
failure. For hazardous liquid pipelines, the three categories of repair are defined as
immediate repair, 60 days to repair, and 180 days to repair. For example, a top dent
with any indication of metal loss requires immediate response and action, whereas a
bottom dent with any indication of metal loss requires a response and action within
60 days.    Other types of threats include remediation activities that are not
considered time-sensitive. Using the criteria, pipeline operators must characterize
the type of repair required, evaluate the risk of failure, and make the repair within
the defined time limit.

Of the more than 20,000 threats that have been identified and remediated to date,
more than 1,200 required immediate repair, 760 required repairs within 60 days,
and 2,400 required repairs within 180 days. More than 16,300 threats fall into the
category of other remediation activities that are not considered time-sensitive.
OPS’s remediation criteria encompass a broad range of actions, which include
mitigative measures (such as reducing the pipeline pressure flow), as well as repairs
that an operator can make to resolve an integrity threat. For immediate repairs, an
operator must temporarily reduce operating pressure or shut down the pipeline until
the operator completes the repair of the threat.

The challenges inspectors face during a review of an operator’s baseline integrity
inspection results are to determine whether OPS’s repair criteria were properly used
to characterize the type of repair required for each threat identified and whether the
operator’s threat remediation plans are adequate to repair or mitigate the threat.
More importantly, however, is that OPS will need to follow up to ensure that the
operator has properly executed its remediation actions within the defined time limit.




                                                                                   14
Improvements Are Needed in Coordinating Federal and State
Environmental Reviews and Permitting Processes
The transmission of energy through the Nation’s pipeline system in a safe and
environmentally sound manner is essential to the well-being of human health,
public safety, and the environment. One way to do this is to develop and ensure
implementation of a coordinated Federal and state environmental review and
permitting process that will enable pipeline operators to complete pipeline repairs
quickly. There will be mounting pressures to accelerate the environmental review
and permitting processes, given the high number of threats found during the early
stages of pipeline operators’ baseline integrity inspections that must be repaired
within specified time limits.

The recent pipeline rupture in northern California demonstrates the perils of not
being able to promptly repair pipeline threats. In April 2004, a hazardous liquid
pipeline ruptured in the Suisun Marsh south of Sacramento, California, releasing
about 85,000 gallons of diesel fuel into 20 to 30 acres of marshland. Muskrats,
beaver, and water fowl were affected by the spill. Fortunately, there were no
human fatalities or injuries as a result of the rupture.

The deteriorating condition of the pipeline that ruptured was well documented by
the pipeline operator, who had reduced pipeline operating pressure to lessen the risk
of a rupture and keep the flow of energy to users in Sacramento and Chico,
California, and Reno, Nevada.         The pipeline operator wanted to relocate the
pipeline away from the Suisun Marsh and initiated actions to do so in 2001.
However, the environmental review and permitting processes took far too long:
nearly 3 years and more than 40 permits in total. There is little doubt that the
rupture would not have occurred had the permit process been quicker.

The importance of accelerating the permit process, when necessary, cannot be
overstated. As we have noted, results from the hazardous liquid pipeline operators’
baseline integrity inspections in high-consequence areas show that more than

                                                                                  15
20,000 integrity threats were identified for remediation. More than 1,200 threats
required immediate repairs, 760 threats required repairs within 60 days, and 2,400
threats required repairs within 180 days. As operators continue with their baseline
integrity inspections, the implications are that the number of integrity threats will
continue to rise. According to OPS, repairs for other known pipeline threats are
being delayed because of the environmental review and permitting processes, and
they are best taken care of sooner rather than later, so as to prevent another incident
like the Suisun March rupture.

When it passed the 2002 Act, Congress recognized the need to expedite the
environmental review and permitting process. Section 16 of the 2002 Act directed
the President to establish an interagency committee that would implement a
coordinated environmental review and permitting process so that pipeline repairs
could be made within the time periods specified by IMP regulations.

Committee activities were to include:

• An evaluation of Federal permitting requirements.

• Identification of best management practices to be used by industry.

• The development of an MOU by December 17, 2003, (1 year after the
   enactment of the 2002 Act) to provide for a coordinated and expedited pipeline
   permit process that would result in no more than minimal adverse effects on the
   environment.

The 2002 Act also requires the committee to consult with state and local
environmental, pipeline safety, and emergency response officials, and requires the
Secretary of Transportation to designate on ombudsman to assist in expediting the
pipeline process and resolving disagreements over pipeline repairs between Federal,
state, and local permitting agencies and the pipeline operator.



                                                                                    16
To implement Section 16, the President issued an Executive Order in May
2003, establishing the Interagency Task Force and directed it to implement the
committee activities.    The Chairman of the Council on Environmental Quality
chairs the Interagency Task Force, whose membership includes representatives
from the Departments of Agriculture, Commerce, Defense, Energy, the Interior, and
Transportation; the Environmental Protection Agency; the Federal Regulatory
Commission; and the Advisory Council on Historic Preservation.

Although an MOU has been drafted, it has not been finalized as of June 11, 2004.
According to OPS, not all members of the Interagency Task Force have agreed to
the provisions of the MOU, while other members believe that there are provisions in
the Clean Air Act, Clean Water Act, the Endangered Species Act that prohibit them
from taking any action to expedite the permitting process. Until the MOU is
finalized, an evaluation of Federal permitting requirements and identification of
best management practices to be used by industry will be further delayed.

These issues need to be resolved by the Interagency Task Force. While the problem
may not be easily resolved, Federal agencies must work together to accelerate the
environmental review and permitting process to avoid failures like the Suisun
Marsh rupture or even worse. If the Interagency Task Force set up to monitor and
assist agencies in their efforts to expedite their review of permits cannot develop a
method for expediting the environmental review and permit process so that pipeline
repairs can be made before a serious consequence occurs, then it may be necessary
for Congress to take action.

Closing the Safety Gap on Natural Gas Distribution
Pipelines
The 2002 Act requires that the operators of natural gas pipeline facilities implement
IMPs. However, the IMP requirement applies only to natural gas transmission
pipelines and not to natural gas distribution pipelines.



                                                                                  17
As part of the IMP, operators of hazardous liquid and natural gas transmission
pipelines are required to inspect the integrity of their pipelines using one or more of
the following inspection methods:                            smart pigs, pressure testing, or direct
assessment.10 According to officials of the American Gas Association, the initial
reason why IMPs were not required for natural gas distribution pipelines is that
distribution pipelines cannot be inspected using smart pigs.                                        The smart pig
technologies currently available cannot be used in natural gas distribution pipelines
because the majority of distribution piping is too small in diameter (1 to 6 inches)
and has multiple bends and material types intersecting over very short distances.

The IMP is a risk-management tool designed to improve safety, environmental
protection, and reliability of pipeline operations.                            That natural gas distribution
pipelines cannot be internally inspected using smart pigs is not by itself a sufficient
reason for not requiring operators of natural gas distribution pipelines to have IMPs.
Other elements of the IMP can be readily applied to this segment of the industry,
including but not limited to (1) a process for continual integrity assessment and
evaluation, (2) an analytical process that integrates all available information about
pipeline integrity and the consequences of failure, and (3) repair criteria to address
issues identified by the integrity assessment and data analysis.

Natural Gas Distribution Pipeline Safety Concerns
Our concern is that the Department’s strategic safety goal is to reduce the number of
transportation-related fatalities and injuries, but natural gas distribution pipelines
are not achieving this goal. In the 10-year period from 1994 through 2003, OPS’s
data show accidents in natural gas distribution pipelines have caused more than
4 times the number of fatalities (174 fatalities) and more than 3.5 times the number
of injuries (662 injuries) when compared to a combined total of 43 fatalities and



10
     Operators can choose another technology that demonstrates an equivalent understanding of the integrity of the pipeline
     but only after notifying OPS before the inspection begins.


                                                                                                                       18
178 injuries associated with hazardous liquid and gas transmission pipeline
accidents combined.

Accidents involving natural gas distribution pipelines can be as catastrophic as
accidents involving hazardous liquids or natural gas transmission pipelines. For
example, on December 11, 1998, in downtown St. Cloud, Minnesota, a
communications crew ruptured an underground natural gas distribution pipeline,
causing an explosion that killed 4 people, seriously injured 1, and injured 10 others.
Six buildings were destroyed. In another example, in July 2002, a gas explosion in
a multiple-family dwelling in Hopkinton, Massachusetts, killed 2 children and
injured 14 others.

In the past 3 years, the number of fatalities and injuries from accidents involving
natural gas distribution pipelines has increased while the number of fatalities and
injuries from accidents involving hazardous liquid and natural gas transmission
pipelines has held steady or declined. OPS’s data show that fatalities and injuries
from accidents involving natural gas distribution pipelines increased from
5 fatalities and 46 injuries in 2001 to 11 fatalities and 58 injuries in 2003. For the
same period, fatalities and injuries from accidents involving hazardous liquid and
natural gas transmission pipelines decreased from 2 fatalities and 15 injuries in
2001 to 1 fatality and 13 injuries in 2003.

Although OPS has moved forward with initiatives11 to enhance the safety of natural
gas distribution pipelines, OPS needs to ensure that the pace of its efforts moves
quickly enough, given the upward trend in fatalities and injuries involving these
pipelines and the projected increase in distribution pipelines to meet the increasing
demand for natural gas.



11
     With OPS support, the American Gas Foundation is sponsoring a study to assess the Nation’s gas distribution
     infrastructure that will evaluate safety performance, current operating and regulatory practices, and emerging
     technologies.


                                                                                                               19
OPS should require operators of natural gas distribution pipelines to implement
some form of pipeline integrity management or enhanced safety program with the
same or similar integrity management elements, except pigging, as the hazardous
liquid and natural gas transmission pipelines. This would be consistent with OPS’s
risk-based approach to overseeing pipeline safety by using IMPs to reduce the risk
of accidents that may cause injuries or fatalities to people living or working near
natural gas distribution pipelines, as well as to reduce property damage.

Developing an Approach To Overseeing Pipeline Security
The focus of our recently completed review was pipeline safety. However, given
the importance of protecting the Nation’s infrastructure of pipeline systems, we also
reviewed OPS’s involvement in the security of the pipeline systems.

OPS’s Security Efforts Following September 11, 2001
Following the events of September 11, 2001, OPS moved forward on several fronts
to help reduce the risk of terrorist activity against the Nation’s pipeline
infrastructure, such as opening the lines of communication among Federal and state
agencies responsible for protecting the Nation’s critical infrastructure, including
pipelines; conducting pipeline vulnerability assessments and identifying critical
pipeline systems; developing security standards and guidance for security programs;
and working with Government and industry to help ensure rapid response and
recovery of the pipeline system in the event of a terrorist attack.

To protect the Nation’s pipeline infrastructure, OPS issued new security guidance to
pipeline operators nationwide in September 2002. In the guidance, OPS requested
that all operators develop security plans to prevent unauthorized access to pipelines
and identify critical facilities that are vulnerable to a terrorist attack. OPS also
asked operators to submit a certification letter stating that the security plan had been
implemented and that critical facilities had been identified. During 2003, OPS in




                                                                                     20
conjunction with the DHS’s TSA started reviewing operator security plans. The
plans reviewed have been judged responsive to the OPS guidance.

Unlike its pipeline safety program, OPS’s security guidance is not mandatory:
industry’s participation in a security program is strictly voluntary and cannot be
enforced unless a regulation is issued to require industry compliance. In fact, it is
still unclear what agency or agencies will have responsibility for pipeline security
rulemaking, oversight, and enforcement.       Although OPS took the lead to help
reduce the risk of terrorist activity against the Nation’s pipeline infrastructure
following the events of September 11, 2001, OPS has stated it now plays a
secondary, or support, role to TSA, the agency with primary responsibility for
ensuring the security of the Nation’s transportation system, including pipelines.

Recent Initiatives Clarifying Security Responsibilities
Certain steps have been taken to establish what agency or agencies would be
responsible for ensuring the security of the Nation’s critical infrastructure, including
pipelines.   For example, in December 2003, Homeland Security Presidential
Directive/HSPD-7 (HSPD-7):

• Assigned the DHS the responsibility for coordinating the overall national effort
   to enhance the protection of the Nation’s critical infrastructure and key
   resources.

• Assigned DOE the responsibility for ensuring the security of the Nation’s
   energy, including the production, refining, storage, and distribution of oil and
   gas.

• Directed DOT and DHS to collaborate on all matters relating to transportation
   security and transportation infrastructure protection and to regulating the
   transportation of hazardous materials by all modes, including pipelines.




                                                                                     21
Although HSPD-7 directs DOT and DHS to collaborate in regulating the
transportation of hazardous materials by all modes, including pipelines, it is not
clear from an operational perspective what “to collaborate” encompasses, and it is
also not clear what OPS’s relationship will be with DOE. The delineation of roles
and responsibilities between DOT and DHS needs to spelled out by executing an
MOU or a Memorandum of Agreement. OPS also needs to seek clarification on the
delineation of roles and responsibilities between itself and DOE.

Mr. Chairman, this concludes my statement.        I will be pleased to answer any
questions that you might have.




                                                                               22
